                                                                             Report No. DODIG-2014-040




              I nspec tor Ge ne ral
                                                       Department of Defense

              F E B RUA RY 2 1 , 2 0 1 4




                     Assessment of DoD Wounded
                     Warrior Matters: Managing
                     Risks of Multiple Medications




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                   the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                         Fraud, Waste and Abuse
                         HOTLINE
                         1.800.424.9098 • www.dodig.mil/hotline




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       Assessment of DoD Wounded Warrior Matters:
                                       Managing Risks of Multiple Medications



February 21, 2014

Objective                                             Findings
During the fieldwork for the assessment of            We found that the Department of Defense did not have
Wounded Warrior programs, we identified               overarching policies and procedures to ensure consistent
challenges pertaining to medication                   medication management and reconciliation practices in the
management practices. This follow-on                  Wounded Warrior population. The Services have adopted
assessment focused on DoD and Service                 policies at various command levels; however, there is wide
policies and programs intended to manage              variance across the Services in the policies and standards for
the risks associated with Wounded Warriors            medication reconciliation.
who were prescribed multiple medications
during the course of their treatment and              Additionally, Wounded Warriors did not have a reliable, safe,
recovery. Specifically, we examined the               accessible, and accountable method to dispose of medications
policies related to reducing adverse drug             that were no longer needed for treatment.  As a result, Wounded
events such as unanticipated side effects,            Warriors may be at risk for overdose or misuse of unneeded
decreased drug effectiveness, accidental              medications that could result in unnecessary hospitalization
overdose, and death. We also examined                 and death.
the procedures related to disposing of
medications that are expired or no longer
needed for treatment. Misuse of unneeded
                                                      Recommendations
medications can result in similar adverse             We recommend the Department of Defense create Military
drug events.                                          Health System policy to address the risks for Wounded
                                                      Warriors who may use multiple medications in the course of
                                                      their treatment; and the Services update policies to address the
                                                      unique needs of the Wounded Warrior population. We also
                                                      recommend the Secretary of Defense request the U.S. Attorney
                                                      General expedite the Drug Enforcement Administration decision
                                                      for issuance of authority for Department of Defense medical
                                                      treatment facility pharmacies to conduct routine take-back
                                                      of unnecessary prescription medication, and that the Services
                                                      create implementation policy if that authority is given by the
                                                      Drug Enforcement Administration. Finally, we recommend
                                                      the Department of Defense develop additional education and
                                                      information initiatives on the proper disposal of expired or
                                                      unneeded medications.




Visit us on the web at www.dodig.mil


                                                                 Report No. DODIG-2014-040 (Project No. D2010-D00SPO-0209.007) │ i
                   Management Comments and Our Response
                   The Office of the Secretary of Defense, Army Surgeon General, and Navy Surgeon
                   General provided comments to this report. Management concurred with all the
                   recommendations. At the time of this publication, the Air Force Surgeon General had
                   not provided management comments. We request the Air Force provide management
                   comments to Recommendation A.2., by March 21, 2014. The full reproduction of the
                   comments received is included in this report.


                   Recommendations Table
                                                               Recommendations         No Additional
                              Management                       Requiring Comment     Comments Required
                    Secretary of Defense                                                    1.a
                    Assistant Secretary of Defense                                      1.a, 2.b, 2.c
                    for Health Affairs
                    Army Surgeon General                                                    1.b
                    Navy Surgeon General                                                    1.b
                    Air Force Surgeon General                         1.b

                   Total Observations and Recommendations in this Report: 2 and 5.
                   Please provide comments by March 21, 2014.




ii │ Report No. DODIG-2014-040 (Project No. D2010-D00SPO-0209.007)
                            INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                           4800 MARK CENTER DRIVE
                        ALEXANDRIA, VIRGINIA 22350-1500


                                                                  February 21, 2014

MEMORANDUM FOR DISTRIBUTION

SUBJECT:	 Assessment of DoD Wounded Warrior Matters: Managing Risks of Multiple
          Medications (Report No. DODIG-2014-040)

The Deputy IG, Special Plans and Operations (SPO) is providing this report for your
review and comment.  This is the seventh Wounded Warrior report published by
the DoD IG in the past three years. This report provides an assessment of
Wounded Warrior medication management practices across all the Services.

We considered management comments on a draft of this report when preparing
the final report. Comments from the Office of Secretary of Defense, the Assistant
Secretary of Defense for Health Affairs, the Army Surgeon General, and the Navy
Surgeon General were responsive. However, the Air Force Surgeon General did not
provide comment on Recommendation A.2 by the release of this publication.
We therefore request the Air Force comment to the final report.

Please provide comments that conform to the requirements of DoD Directive 7650.3.
If possible, send your comments in electronic format (Adobe Acrobat file only)
to SPO@dodig.mil. Copies of your comments must have the actual signature of
the authorizing official for your organization.  We are unable to accept the
/ Signed / symbol in place of the actual signature.  We should receive your comments
by March 21, 2014.

Your comments should state whether you agree or disagree with the observation(s)
and recommendation(s). If you agree with a recommendation, clearly state that
you “concur” or “concur with comment” and describe what actions you have taken or
plan to take to accomplish the recommendation and include the completion dates
of your actions. Send copies of documentation supporting the actions you may
have already taken. If you disagree with the recommendations or any part of them,
please clearly state your “non-concur” and give specific reasons why you disagree
and propose alternative action if that is appropriate.

Three of this report’s five recommendations concern reviewing and/or
developing medication management policy.  SPO will monitor the progress of these
recommendations through semiannual updates.




                                                                           Report No. DODIG-2014-040 │ iii
                   We appreciate the courtesies extended to the staff. Please direct questions to
                   Mr. Bruce Shahbaz at (703) 699-5423 (DSN 664-9485)/bruce.shahbaz@dodig.mil.
                   We will provide a formal briefing on the results, if management requests.




                   	 Kenneth P. Moorefield
                   	 Deputy Inspector General
                   		 Special Plans and Operations




iv │ Report No. DODIG-2014-040
Distribution:

Secretary of Defense
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense for Health Affairs
    Warrior Care Policy
Director, Joint Staff
    Joint Staff Surgeon
Commandant of the Marine Corps
    Medical Officer of the Marine Corps
    Commander, Wounded Warrior Regiment
Chief, National Guard Bureau
Assistant Secretary of the Army for Manpower and Reserve Affairs
The Surgeon General/Commander, U.S. Army Medical Command
    Commander, Warrior Transition Command
Surgeon General of the Navy and Chief, Bureau of Medicine and Surgery
Surgeon General of the Air Force
Inspector General, Department of the Army
Naval Inspector General
Inspector General, Department of the Air Force

Inspector General, Office of the Secretary of Veterans Affairs
Inspector General, Department of Justice
Government Accountability Office

Senate Committee on Armed Services
Senate Committee on Homeland Security And Governmental Affairs
Senate Committee on Appropriations, Subcommittee On Defense
House Committee on Armed Services
House Committee on Oversight And Government Reform
House Committee on Appropriations, Subcommittee On Defense




                                                                        Report No. DODIG-2014-040 │ v
Contents
Introduction
Medication Reconciliation Requirement _ _____________________________________________________2
Background ______________________________________________________________________________________3
Objective _________________________________________________________________________________________4
Scope _____________________________________________________________________________________________5
Methodology _____________________________________________________________________________________5

Noteworthy Practices
DoD Information Technology Support to Medication Management _________________________7
Service-Specific Medication Management Policies _ __________________________________________9
Clinical Guidelines and Other Tools __________________________________________________________ 11

Observation 1. Medication Reconciliation _____________________ 13
Medication Reconciliation ____________________________________________________________________ 13
Background ____________________________________________________________________________________ 13
Discussion ______________________________________________________________________________________ 14
     Precedence for Overarching DoD Policy _______________________________________________ 15
Conclusion _____________________________________________________________________________________ 15
Recommendations, Management Comments, and Our Response _________________________ 16

Observation 2. Medication Disposal _ ______________________________ 19
Background ____________________________________________________________________________________ 19
     Methods to Remove Expired or Unneeded Medications ______________________________ 19
     Impact of Medication Misuse _ __________________________________________________________ 20
     Drug Take-Back Programs _ _____________________________________________________________ 21
Discussion ______________________________________________________________________________________ 22
     Proposed Changes in DEA Regulations _________________________________________________ 23
     DoD’s Response to the Proposed DEA Rule Change ___________________________________ 24
Conclusion _____________________________________________________________________________________ 25




                                                                                         Report No. DODIG-2014-040 │ vii
                   Contents (cont’d)
                   Appendixes
                   Appendix A. Scope and Methodology _ ______________________________________________________ 29
                   Appendix B. Summary of Prior Coverage ___________________________________________________ 31
                   Appendix C. Legislative History and Related Activity ______________________________________ 34

                   Management Comments ____________________________________________________ 37
                   Acronyms and Abbreviations _____________________________________________ 49




viii │ Report No. DODIG-2014-040
                                                                                                                                  Introduction




Introduction
Medication safety is an issue of national importance that also has military significance.
The Centers for Disease Control and Prevention (CDC) reported 700,000 emergency
department1 visits and 120,000 hospitalizations in the United States annually
because of adverse drug events (ADE). They estimated that 40 percent of the costs of
outpatient medical care related to ADEs are preventable.  In November 2011, the
CDC stated that deaths from overdose of prescription pain medication had reached
epidemic levels.2 The CDC reported that nearly 15,000 people die every year from
pain medication overdose, and that 1 in 20 people in the United States reported
misusing prescription pain medications in the past year.

The White House’s 2012 National Drug Control Strategy stated that there were
39,147 drug-induced deaths in 2009. This exceeded the 36,216 motor vehicle deaths
that occurred in the same year.  Misuse of prescription medications was the second
most frequent type of illicit drug used by individuals aged 12 or older in 2010 and
25 percent of young Americans who used illicit drugs for the first time did so by
misusing prescription drugs.  The strategy identified four main elements for reducing
prescription medication misuse.

            •	 Educate healthcare providers on proper narcotic/opioid prescribing
                practices, and educate patients (and parents) on the risks of medication
                misuse and the importance of properly securing medication.

            •	 Track medication use through electronic prescription drug monitoring
                programs that allow healthcare providers and pharmacists to identify
                patients who engage in “doctor shopping”3 or other medication
                misuse behavior.

            •	 Dispose of medications that are no longer needed by the patient.

            •	 Enforce medication diversion laws.




	1	
    A hospital emergency department is also known as an emergency room or ER.
	2	
    These overdose deaths can be the result of accidental overdose from legitimately prescribed medication or illicit use of
    medication that was not prescribed.
	3	
    The CDC states that the term “doctor shopping” has traditionally referred to a patient obtaining controlled substances from
    multiple health care practitioners without the prescribers’ knowledge of the other prescriptions.




                                                                                                                   Report No. DODIG-2014-040 │ 1
Introduction



                  The military has experienced similar problems with medication misuse. The Armed
                  Forces Health Surveillance Center reported that the military had almost
                  13,000 pharmaceutical-related hospitalizations for overdose/poisoning between
                  2001 and 2010. During this same time, there were more than 2,500 hospitalizations
                  for alcohol or illegal drug overdose/poisoning. Prescription medication overdose
                  happened almost five times more often than alcohol or illegal drug overdose.
                  Pain medications and psychotropic4 medications accounted for more than 65 percent
                  of these overdose/poisoning hospitalizations.


                  Medication Reconciliation Requirement
                  The Department of Defense requires that all garrison-based medical treatment
                  facilities5 meet or exceed standards of appropriate external healthcare accrediting
                  bodies. This includes accreditation of all hospitals by The Joint Commission6 or
                  other approved organizations. Accreditation by The Joint Commission includes
                  evaluation of a hospital’s compliance with The Joint Commission’s National Patient
                  Safety Goals (NPSGs).

                  In 2002, The Joint Commission established its NPSG program to help accredited
                  healthcare organizations address patient safety.  NPSG Goal 3 is “Improve the Safety
                  of Using Medications.”  In 2011, this goal was modified to include the critical risk
                  points of medication reconciliation.7  The elements of performance used to evaluate
                  compliance with the medication reconciliation goal are broad and generic because
                  they are intended for a wide variety of healthcare settings from small outpatient
                  clinics to large medical centers.

                  Even though The Joint Commission does not mandate the procedures to conduct
                  medication reconciliation, it is widely viewed as a five-step process.

                          1.	     Develop a current list of all medications, prescription and over-the-counter,
                                  that the patient is taking.

                          2.	     Develop a list of proposed medications to be prescribed.


                  	4	
                       Psychotropic medications are used to treat behavioral health conditions such as depression, anxiety, post-traumatic stress,
                       obsessive behavior, etc.
                  	 5	
                       Garrison-based refers to permanently established military bases in the United States or overseas but excludes military
                       bases in an operational theater.
                  	6	
                       The Joint Commission is an independent, not for profit organization that is a standards-setting and accrediting body in
                       healthcare. Accreditation and certification by The Joint Commission is recognized nationwide as a symbol of quality that
                       reflects an organization’s commitment to meeting certain performance standards.
                  	7	
                       Medication reconciliation is a process of comparing the medications an individual is taking (and should be taking) with
                       newly ordered medications. This comparison addresses duplications, omissions, and interactions, and the need to continue
                       current medications.




2 │ Report No. DODIG-2014-040
                                                                                          Introduction



      3.	   Compare the medications on the two lists to identify omissions,
            duplications, incorrect doses, conflicts in timing, or potential adverse
            drug interactions.

      4.	   Make clinical decisions based on this information—consult with specialty
            providers and other clinical experts as necessary.

      5.	   Communicate the new list with appropriate healthcare providers and
            the patient.

The military’s Wounded Warrior population is particularly vulnerable to medication
management challenges and issues. Wounded Warriors are likely to be routinely
prescribed medications that have a high potential for ADEs and/or misuse due to
the medical conditions most common in this population. For example, the high
prevalence of orthopedic injuries and behavioral health issues, or a combination of
the two, often result in Wounded Warriors having to take several medications
concurrently. It is also common for Wounded Warriors to frequently change
medications or dosage. This creates medication management issues that should
be addressed to mitigate the risk of ADEs and/or misuse.


Background
The Military Services formed the Wounded Warrior programs because of the
increased number of service member casualties incurred during military operations
in Iraq and Afghanistan. Initial programs were formed as early as 2004 and 2005.
The programs expanded following media and congressional interest over Wounded
Warrior issues identified at Walter Reed Army Medical Center in February 2007.
There have been many oversight hearings, special commissions, task forces, and
reports related to Wounded Warrior recovery, rehabilitation, and reintegration over
the past 6 years.

While the criteria for admission into Wounded Warrior programs vary somewhat
by Service, there are similarities across these programs. All the programs assist
Wounded Warriors who are navigating through the complex DoD and Veterans
Affairs (VA) disability evaluation processes. They all provide career, education, and
readiness transition support. Most provide care coordination and/or nonclinical
case management. The Army provides clinical case management within the Wounded
Warrior unit while the other Services provide it through the medical treatment
facility. According to the Office of Warrior Care Policy, the overall objective of
Wounded Warrior programs is to “ensure wounded, ill, injured, and transitioning
service members receive high-quality care and seamless transition support.”


                                                                             Report No. DODIG-2014-040 │ 3
Introduction



                  In June 2010, the DoD Inspector General’s (IG) Office of Special Plans and Operations
                  began a series of site visits to Army and Marine Corps Wounded Warrior units.
                  The purpose of the site visits was to determine whether the DoD programs for the
                  care, management, and transition of recovering service members wounded during
                  deployment in Operation Iraqi Freedom or Operation Enduring Freedom were
                  managed effectively and efficiently.

                  DoD IG has produced the following six reports related to Wounded Warrior programs
                  based on site visits to four Army and two Marine Corps Wounded Warrior units.

                                •	 DoD IG Report No. SPO-2011-004, “Assessment of DoD Wounded
                                  Warrior Matters–Fort Sam Houston,” March 17, 2011.

                                •	 DoD IG Report No. SPO-2011-010, “Assessment of DoD Wounded
                                  Warrior Matters–Fort Drum” September 30, 2011.

                                •	 DoD IG Report No. DODIG-2012-067, “Assessment of DoD Wounded
                                  Warrior Matters–Camp Lejeune,” March 30, 2012.

                                •	 DoD IG Report No. DODIG-2012-120, “Assessment of DoD Wounded
                                  Warrior Matters–Wounded Warrior Battalion–West Headquarters and
                                  Southern California Units,” August 22, 2012.

                                •	 DoD IG Report No. DODIG-2013-087, “Assessment of DoD Wounded
                                  Warrior Matters–Joint Base Lewis-McCord,” May 31, 2013.

                                •	 DoD IG Report No. DODIG-2013-113, “Assessment of DoD Wounded
                                  Warrior Matters–Fort Riley,” August 6, 2013.

                  We noted medication management issues during all of the Wounded Warrior site visits.


                  Objective
                  The objectives of this assessment were to determine whether DoD:

                                •	 had policies and programs in place to help manage the risks associated
                                  with Wounded Warriors who may be on multiple medications; and

                                •	 addressed issues concerning medication management including, but not
                                  limited to, medication reconciliation and proper disposal of medications.




4 │ Report No. DODIG-2014-040
                                                                                             Introduction



Scope
This assessment is intended to specifically address the theme of medication
management observations from previous oversight work completed at the
installation level. It draws on conclusions based on observations made regarding
Wounded Warrior-related policies and practices of the Department of Defense,
Assistant Secretary of Defense for Health Affairs (ASD[HA]) and the Services.


Methodology
We reviewed documents such as Federal laws and regulations, the National Defense
Authorization Act, Chairman of the Joint Chiefs of Staff instructions, DoD directives
and instructions, and relevant civilian and military scientific literature pertinent to
the topic of Wounded Warriors taking multiple medications. We reviewed data
from previous Wounded Warrior assessments.  Additionally, we reviewed information
on medication reconciliation and proper disposal of medications, to include
documentation of site visits, interviews, and briefings to the DoD IG concerning
medication management in the Wounded Warrior population.




                                                                                Report No. DODIG-2014-040 │ 5
                                                                                                                           Noteworthy Practices




Noteworthy Practices
There have been several notable accomplishments to improve medication
management and reconciliation within the Department of Defense. These
innovations include using the Pharmacy Data Transaction Service (PDTS) to
increase situational awareness of prescription medications in the electronic
medical record.8  The policies and guidelines described in this section appear to
have improved medication oversight. These innovations should be monitored,
sustained, and improved as necessary.


DoD Information Technology Support to
Medication Management
Within the PDTS, the DoD Pharmacoeconomic Center (PEC) developed the
Warrior Transition Unit (WTU) Prescription Medication Analysis and Reporting
Tool (P-MART) in July 2008. The WTU P-MART provides an automated tool for
primary care providers and nurse case managers to monitor high-risk medications
in all Wounded Warrior populations. The WTU P-MART identifies an “individual
who may require a more intensive medical review, to identify potential at-risk
patients, or to monitor adherence to a sole provider program.” There are two types
of reports available from the WTU P-MART: 1) by-name reports of each Wounded
Warrior’s medications, and 2) by-medication reports listing all the Wounded
Warriors taking a specific type of medication.

The WTU P-MART can provide by-name reports of each Wounded Warrior and lists
all their prescribed medications. These reports specifically highlight high-risk
medications (medications with significant potential for adverse effects), controlled
substances (medications with an increased possibility for addiction or abuse), and
chronic medications (for example, blood pressure, allergy medicine).  This by-name
list of all the Wounded Warriors’ prescribed medications allows the primary care
providers and nurse case managers to identify potential medication conflicts and
recognize potential abuse.

The WTU P-MART can also produce by-medication reports for particular medications
or combinations of medications listing the names of all the Wounded Warriors taking
that medication.  This report is useful when a primary care provider or nurse case

	8	
      The PDTS is a centralized data repository that tracks all medical treatment facility, civilian, or mail-order pharmacy
      prescription medications for all DoD beneficiaries. The data is available for all medical treatment facility pharmacies.




                                                                                                                        Report No. DODIG-2014-040 │ 7
Noteworthy Practices



                  manager is interested in a particular medication (for example, concerned about
                  potential misuse or over prescribing). It allows clinicians to identify changes in
                  prescribing patterns of particular medications that may indicate a change in the
                  health of the Wounded Warrior population.

                  With the increased situational awareness gained from the WTU P-MART, primary
                  care providers, or nurse case managers, have the ability to determine that a
                  Wounded Warrior is at risk for adverse drug events. This situational awareness is
                  required to successfully implement any policies or programs to improve
                  medication management.

                  The PEC’s Medication Restriction Program uses the PDTS to constrain who can
                  prescribe medications for the Wounded Warrior, restricts the pharmacies that
                  the Wounded Warrior may use, and prohibits use of certain medications by the
                  Wounded Warrior.  This is also called the “1-1-1” program because it restricts a
                  Wounded Warrior to one prescribing healthcare provider (also known as “sole
                  provider program”), one pharmacy for obtaining medications, and one emergency
                  department for off-duty care.

                  As an additional control measure, Wounded Warriors who are enrolled in the
                  “1-1-1” program may also be restricted in the quantity of medication they receive if
                  they are identified as high risk.  This medication restriction reduces the opportunity
                  for misuse or abuse, and allows the healthcare team to monitor medication
                  use closely.

                  Both the “1-1-1” and medication restriction programs are enabled by the electronic
                  messaging capability of the Armed Forces Health Longitudinal Technology
                  Application (AHLTA). The AHLTA is the electronic health record used in military
                  hospitals, outpatient clinics, and pharmacies. The electronic messaging capability
                  informs a provider or pharmacist when a Wounded Warrior has been enrolled in the
                  “1-1-1” program.

                  The increased situational awareness provided by these clinical tools and policies
                  supports          more        timely       decisions         and      improves         medication           management.
                  DoD should continue to support the use of these tools and practices across the
                  Military Health System9 (MHS).


                  	9	
                        The Military Health System consists of the DoD medical and dental programs, personnel, facilities, and other assets
                        whereby they provide healthcare services and support to the Military Services during military operations and under
                        TRICARE to members of the Military Services, their family members, and others entitled to DoD medical care.




8 │ Report No. DODIG-2014-040
                                                                                                                         Noteworthy Practices



Service-Specific Medication Management Policies
Commanders at various levels in the military health system have implemented
policies to address medication management issues. Some of these policies can serve
as best practices across DoD for reducing the challenges in managing medications in
this high-risk population.10

Selected Army policies are described below. This list is not all-inclusive, but
demonstrates that the Army has worked to mitigate the risk involved in managing
multiple medications for Wounded Warriors.

               •	 U.S. Army Office of the Surgeon General (OTSG)/Medical Command
                   (MEDCOM) Policy Memo 10-076,11 “Guidance for Enhancing Patient
                   Safety and Reducing Risk via the Prevention and Management of
                   Polypharmacy12             Involving         Psychotropic            Medications           and      Central
                   Nervous System Depressants,”13 November 9, 2010—provided policy
                   guidance to reduce adverse drug events. Specifically, this policy defined
                   and described the process for medication reconciliation when there are
                   four or more prescribed medications that include one or more
                   psychotropic          agents        and/or        central      nervous         system        depressants.

               •	 OTSG/MEDCOM Policy Memo 11-029, “Warriors in Transition High-
                   Risk Medication Review and Sole Provider Program,” April 7, 2011—
                   provided guidance for reviewing high-risk medication use and provided
                   instructions for the sole provider program. This policy required
                   high-risk Wounded Warrior soldiers to be entered into the sole provider
                   program and receive no more than a 7-day supply of medications.

               •	 Warrior Comprehensive Transition Program (WCTP) Policy Memo 12-004,
                   “Warrior         Transition          Unit/Community               Based         Warrior         Transition
                   Unit      (WTU/CBWTU)                 Risk      Assessment            and       Mitigation          Policy,”
                   September 12, 2012—identified actions and processes to:

                             °° reduce high-risk outcomes which may result in harm to soldiers
                                 and others,

	10	
       Risk is defined by the Army as the probability of harm or injury.
	11	
       This was the policy during most of the DoD Wounded Warriors assessment site visits and medication management
       interviews. OTSG/MEDCOM Policy 13-032 replaced this policy on May 21, 2013. However, this report only addresses the
       policy that was in place during site visits and interviews.
	12	
       Polypharmacy refers to patients who are treated for multiple conditions with a variety of medications prescribed by several
       health care providers.
	13	
       Central Nervous System Depressants are medications which can result in suppression of respiratory drive and therefore
       require close medical supervision.




                                                                                                                      Report No. DODIG-2014-040 │ 9
Noteworthy Practices



                                        °° direct risk assessment and reassessments of all soldiers, and

                                        °° outline mitigating actions for soldiers assessed as high-risk.

                                 This policy identified the minimum requirements for medication
                                 reconciliation.

                  Neither the Navy nor the Air Force has adopted Service-wide medical policies
                  addressing medication management in their Wounded Warrior population.
                  However, both Services encouraged regional or installation commanders to establish
                  policies. Selected Navy Bureau of Medicine and Surgery subordinate medical
                  commands are described below.

                             •	 Navy Medicine West Instruction 6320.1, “Provision of Medical Care and
                                 Support Services to Wounded, Ill and Injured Service Members Enrolled
                                 in Wounded Warrior Programs,” November 10, 2011—promulgated
                                 guidance and standards for the care of Wounded Warriors within Navy
                                 Medicine West Medical Treatment Facilities. This policy identified the
                                 requirements for a deliberate medication review and reconciliation which
                                 is conducted by a clinical pharmacist.

                             •	 Navy Hospital Camp Lejeune Instruction 6320.55C, “Pain Assessment
                                 and Management,” May 17, 2011—established policies and guidelines
                                 for healthcare professionals to ensure optimal patient comfort through
                                 a proactive pain-control plan which is mutually established with the
                                 patient, family members, and members of the healthcare team.

                             •	 Navy     Hospital   Camp       Lejeune    Instruction   6710.5A,    “Controlled
                                 Medication Utilization Review and Intervention Protocol,” May 9,  2012—
                                 assigned responsibility and established guidance for monitoring
                                 controlled medication use, in order to identify potential controlled
                                 medication misuse and/or high risk patients. This policy required the
                                 use of the PEC’s Controlled Drug Management Analysis and Reporting
                                 Tool to identify patients who:

                                        °° received five or more controlled medication prescriptions within
                                           a 2-month period,

                                        °° received controlled substances from three or more different
                                           pharmacies within a 2-month period, and




10 │ Report No. DODIG-2014-040
                                                                             Noteworthy Practices



                    °° received controlled substances from three or more different
                      providers within a 2-month period.


Clinical Guidelines and Other Tools
The Defense Centers of Excellence (DCoE) for Psychological Health (PH) and
Traumatic Brain Injury (TBI) works with a network of military and civilian experts
to identify and disseminate clinical best practices. This network includes Federal
agencies, civilian organizations, advocacy groups, clinical experts, and academic
institutions. Their products related to medication management for Wounded
Warriors include:

        •	 VA/DoD Clinical Practice Guidelines that assist healthcare providers in
           integrating evidence-based treatments for PH and TBI with their clinical
           judgment. These guidelines included recommendations for appropriate
           medication therapy.

        •	 Co-Occurring Conditions Toolkit (pamphlet) that assists healthcare
           providers find additional resources for improving basic elements of pain
           and pharmaceutical management.  This toolkit states:  “While medications
           can be very effective, this patient population (Wounded Warrior)
           is at high risk for polypharmacy which may lead to significant
           drug-drug interactions.”

The development of information technology tools that enable comprehensive
medication management policy has proven beneficial for managing medications
prescribed for high-risk Wounded Warriors. There appears to be a synergistic effect
when combining comprehensive policy with information technology tools.  We believe
this combination increased medication situational awareness among healthcare
providers and provided them an improved ability to preempt adverse drug events.
We suggest these innovations be monitored, sustained, and improved as necessary.




                                                                          Report No. DODIG-2014-040 │ 11
                                                                                                                                    Observation 1




Observation 1
Medication Reconciliation
Service policies varied for Wounded Warriors’ medication reconciliation. Some of
the policies were not sufficiently specific to ensure the safety and well-being of the
Wounded Warrior population.

This variance in Service policies was caused by the lack of overarching DoD
guidance to establish the minimum requirements to properly reconcile and
manage Wounded Warriors’ use of multiple medications.

As a result, Wounded Warriors were at risk for adverse drug events that could
negatively affect their recovery and transition. These adverse drug events could
include unanticipated side effects, decreased drug effectiveness, accidental overdose,
and death.



Background
The standards for admission into Wounded Warrior units varied by Service.
The Army required service members to have medical conditions that demanded
at least 6 months of complex medical management.14 The Marine Corps required
service members to have medical conditions that demanded treatment for more
than 90 days. The common requirement in both standards was that the medical
condition adversely affects the readiness of the service member.

The appropriate treatment for these medical conditions frequently included
medication, or combinations of medications, to treat individual symptoms.
Additionally, the dosage or type of medication may be altered during the course of
a Wounded Warrior’s treatment to gain the desired effect and improve their
health. Civilian medical literature has extensively documented that “the relationship
between increasing number of drugs used and increased number of DRPs
[drug-related problems] is strong…polypharmacy stands out as a marked risk factor
for developing DRPs.”15  Therefore, it is important to ensure that medications are
closely monitored and managed, especially in the Wounded Warrior population.

	14	
        The National Committee for Quality Assurance defines complex case management as “(t)he systematic coordination
        (and) assessment of care (and) services provided to members who have experienced a critical event or diagnosis that
        requires the extensive use of resources (and) need help navigating the system to facilitate appropriate delivery of care
        (and) services.”
	 15	
        British Journal of Clinical Pharmacology, “Polypharmacy as commonly defined is an indicator of limited value in the
        assessment of drug-related problems,” 30 August 2006, page 193.




                                                                                                                        Report No. DODIG-2014-040 │ 13
Observation 1



                  The military health system is a joint endeavor. For example, the Joint Task Force
                  National Capital Region Medical Command is responsible for providing a “world-
                  class medical center…serving our military.”  The San Antonio Military Medical Center
                  provides inpatient medical care to Wounded Warriors from all Services.  The Navy is
                  responsible for delivering healthcare to Marines. Wounded Warriors often receive
                  medical care in specialty clinics from a different Service.


                  Discussion
                  While some medical commanders have published medication management policies,
                  the guidance varied significantly from Service to Service and even geographically
                  within a Service. Lacking guidance from Department of Defense, the Services have
                  adopted very different policies. For example, the Army established a policy that
                  describes a threshold for medication reconciliation oversight that was different
                  from what was implemented at Naval Hospital Camp Lejeune. The Army’s threshold
                  was four medications when one was a controlled substance, and the Navy’s Camp
                  Lejeune policy called for five controlled substances. The Camp Lejeune policy also
                  included two criteria to help identify “doctor shopping” behavior that the Army did
                  not address. The hospital policies at Camp Lejeune were different from those at
                  Camp Pendleton, California.

                  The DoD IG’s report on Wounded Warrior Matters for the United States Marine
                  Corps (USMC) Wounded Warrior Battalion–West noted that the Naval Hospital Camp
                  Pendleton did not have specific medication management policies or procedures
                  for Wounded Warriors. A hospital pharmacist and clinician in the traumatic brain
                  injury clinic confirmed this fact. There was policy for medication reconciliation in the
                  outpatient clinic, but that policy did not specify staff roles and responsibilities or
                  establish medical record documentation requirements. DoD IG personnel noted
                  similar observations during other Wounded Warrior site visits and reports.

                  These differences might lead to unwarranted medication management distinctions
                  when a Wounded Warrior receives treatment from different medical treatment
                  facilities. For example, an Army Wounded Warrior from Fort Irwin, California, may
                  require specialty care at the Naval Medical Center in Balboa, California. That soldier
                  might receive comprehensive medication management at Fort Irwin, but not receive




14 │ Report No. DODIG-2014-040
                                                                                                                                  Observation 1



the same level of medication oversight at the Navy medical treatment facility.
Changing the geographic location of medical care should not alter the level of clinical
supervision that DoD provides to a Wounded Warrior.

The ASD(HA) is responsible for ensuring healthcare quality within the MHS.
Therefore, it is appropriate for DoD to have consistent policy guidance for
medication management, including medication reconciliation. We believe that
simply meeting the minimum threshold established by The Joint Commission’s
NPSGs is insufficient for the high-risk Wounded Warrior population.


Precedence for Overarching DoD Policy
DoD had not issued overarching policy guidance to address the risks involved in
managing Wounded Warriors’ multiple medications. They have deferred to the
Services to create medication management policy. However, the ASD(HA) established
precedence for publishing overarching medication management policy when
they issued guidance related to the dangers involved in prescribing atypical
antipsychotic medications16 for the treatment of post-traumatic stress disorders.
This guidance identified situations when the use of atypical antipsychotic
medication might not be appropriate and recommended local medical commanders
monitor prescription patterns. This guidance applied to all medical and Service
entities within the DoD.


Conclusion
The ASD(HA) does not have specific policies or guidance addressing the risks
of      managing          medications           in    the     Wounded           Warrior        population.         Medication
management practices, especially for the high-risk patient population of Wounded
Warriors, need to be standardized across DoD.  The Services’ policies and
procedures include aspects that should be considered by ASD(HA) in developing
guidance to ensure medications are properly managed in the DoD Wounded
Warrior population. An overarching DoD policy for medication reconciliation in
the Wounded Warrior population will enable the Services to develop clear and
consistent policies for medication management and decrease the risk of adverse
drug events and poor patient outcomes.




	16	
       Atypical antipsychotic medications are the most recent generation of a specific class of behavioral health medications.




                                                                                                                      Report No. DODIG-2014-040 │ 15
Observation 1



                  Recommendations, Management Comments, and
                  Our Response

                             Recommendation 1.a.
                             Assistant Secretary of Defense for Health Affairs publish policy
                             guidance that addresses the risks for Wounded Warriors who may
                             use multiple medications in the course of their treatment and the
                             need for additional safeguards to ensure that these medications are
                             effectively managed and properly reconciled by medical personnel.



                  Assistant Secretary of Defense for Health Affairs
                  Assistant Secretary of Defense for Health Affairs concurred with comment to the
                  recommendation. Although the Department of Defense (DoD) has multiple programs
                  and risk mitigation strategies in place, establishing an overarching policy will guide
                  consistent implementation. Use of these programs and strategies require that providers
                  are trained in how to optimize care for patients receiving multiple medications.


                  Our Response
                  Comments from the Assistant Secretary are responsive and the actions meet the
                  intent of the recommendation.  We acknowledge the necessity of a working group to
                  develop overarching policy.  We will request semiannual updates on the progress of
                  the working group until the policy is published. We may choose to assess the
                  implementation and effectiveness of the policy in the future.



                             Recommendation 1.b.
                             Military Services’ Surgeons General review and update policies
                             and procedures for medication reconciliation to ensure that they
                             are appropriate to address the unique needs of the Wounded
                             Warrior population.




16 │ Report No. DODIG-2014-040
                                                                                           Observation 1



Army Surgeon General and Army Medical Command
The Army Surgeon General concurred with comment to the recommendation.
MEDCOM recently updated policies (OTSG/MEDCOM Policy Memo 13-032,
21 May 2013), involving medication reconciliation, as indicated in DoD IG’s report.
This policy is due to expire 21 May 2015.


Our Response
Comments from the Army Surgeon General are responsive and the actions meet the
intent of the recommendation.  They have recently reviewed and updated their policy,
and have established a deadline for the next policy review. We will continue to
monitor and review these policies, and may choose to assess implementation and
effectiveness in the future. No further action is required.


Navy Surgeon General and Navy Bureau of Medicine and Surgery
The Navy Bureau of Medicine and Surgery concurred with comment to the
recommendation. They acknowledged the importance of medication reconciliation,
particularly for Wounded Warriors, who are more likely to be prescribed a variety
of medications for various conditions. They concurred that policies regarding
medication reconciliation should be reviewed to ensure that they address the unique
needs of Wounded Warriors.  They noted that all Navy Military Treatment Facilities
comply with The Joint Commission’s Patient Safety Goals, but the specific policies for
conducting medication reconciliation are established in local command instructions.
They believe that any centralized policy should allow sufficient flexibility to account
for local requirements.


Our Response
Comments from the Navy Bureau of Medicine and Surgery are partially responsive
and the actions partially meet the intent of the recommendation because they did
not conduct a review of Wounded Warrior medication management policies.
We recommend the Navy conduct a review of the local command policies to determine
if unnecessary variance exists in those policies; and, if necessary, they should publish
Navy policy to minimize that variance. We may choose to assess implementation and
effectiveness in the future.




                                                                              Report No. DODIG-2014-040 │ 17
Observation 1



                  Air Force Surgeon General
                  As of the release date of this publication, the Air Force Surgeon General has not
                  responded to the DoD IG report or recommendations.


                  Our Response
                  As of the date of publication, the Air Force Deputy Assistant Secretary for
                  Financial Operations and the Air Force Surgeon General had not provided a response.
                  In response to the final report, we request that the Air Force Surgeon General respond
                  in accordance with the attached memo no later than March 31, 2014.




18 │ Report No. DODIG-2014-040
                                                                                         Observation 2




Observation 2
Medication Disposal
DoD medical treatment facilities did not have authority to receive unneeded
medications for disposal from Wounded Warriors, and had to rely on the patient to
discard these medications.

This occurred because current Federal policy restricts “drug take-back” programs to
law enforcement entities.

Therefore, Wounded Warriors did not have a reliable, safe, accessible, and accountable
to DoD method to discard medications no longer needed for treatment.
When medications are misused, it places individuals at increased risk for medical
complications, hospitalization, and even death.



Background
As described in Observation 1, Wounded Warriors have complex medical conditions
that may require frequent medication changes, including the type and dosage
necessary to obtain the intended therapeutic effect. This can result in Wounded
Warriors having excess medications in their possession. Additionally, medications
may expire during the course of treatment and should be discarded. However, there is
no reliable, safe, accessible, and accountable to DoD method for medication disposal
available to Wounded Warriors. Access to these unneeded medications increases the
risk for illicit use or misuse by the Wounded Warrior, another service member, or
a family member.


Methods to Remove Expired or Unneeded Medications
The Food and Drug Administration (FDA) worked with the Office of National
Drug Control Policy (ONDCP) to develop consumer guidance for the proper
disposal of prescription medications. The ONDCP issued this guidance in February
2007 and updated it in October 2009. This consumer guidance included the
following information.

        •	 Follow disposal instructions on the drug label or other patient
           information that accompanies the medication. Do not flush prescription
           drugs down the toilet unless specifically instructed.




                                                                             Report No. DODIG-2014-040 │ 19
Observation 2



                             •	 Take advantage of community drug take-back programs that allow the
                                 public to bring unused drugs to a specific location for proper disposal.
                                 The Drug Enforcement Administration (DEA), working with state and
                                 local law enforcement agencies, sponsor National Prescription Drug
                                 Take-Back Days semi-annually throughout the United States.

                             •	 If no instructions are given on the drug label and no take-back program
                                 is available in the local area, the medications should be taken out of
                                 their original container and mixed with an undesirable substance, such
                                 as used coffee grounds or kitty litter.  This mixture should be placed in a
                                 sealed bag or container and discarded.

                  The DoD supports these FDA approved methods to remove expired or unneeded
                  medications. The standardized medication information sheet provided with every
                  prescription includes warning about not sharing the medication with others,
                  overdose signs and symptoms, and disposal instructions. The Services have also
                  implemented education programs for healthcare providers and Wounded Warrior
                  leaders. For example, the Army’s Polypharmacy and Overdose Medical Education
                  (POME) training program is designed to help healthcare providers educate patients
                  on common side effects, signs and symptoms of overdose, and proper methods of
                  securing medications.  Army Medical Command Policy Memo 13-032 (dated
                  May 21, 2013) required at least 90 percent of healthcare providers complete the
                  POME training within 90 days of initial employment.


                  Impact of Medication Misuse
                  The high and increasing medication misuse by service members presents a
                  significant risk to their well-being, including to the recovery of Wounded Warriors.

                  DoD’s current healthcare education and patient information approaches regarding
                  unneeded medication have not fully addressed the problem of misuse. This misuse
                  has had a significant negative impact on the military. Almost 1,000 service members
                  were hospitalized for self-inflicted pharmaceutical overdoses in calendar year 2010,
                  and almost 15,000 were hospitalized between 2001 and 2010. Pain medications
                  and behavioral health medication overdoses accounted for over 65 percent of
                  these hospitalizations.




20 │ Report No. DODIG-2014-040
                                                                                                                                   Observation 2



The Army Times reported that there were 32 prescription overdose deaths between
2007 and 2009 in Army and Marine Corps Wounded Warriors units. The Army’s
January 2012 Gold Book,17 reported that prescription medications accounted for
142, or 72 percent, of the Army’s 197 drug-related accidental deaths between
FY 2009 and 2011. Additionally, an Army Warrior Transition Unit epidemiologic
analysis established that polypharmacy and overdoses were present in a significant
number of Soldier fatalities. In a sample of 63 cases, 30.2 percent involved ingestion
of a medication that was not prescribed to that Soldier and approximately 50 percent
of the cases involved polypharmacy with multi-drug toxicities or overdoses.

The Army’s Gold Book also reported that 21 percent of all positive drug tests from
random testing in FY 2011 were for prescription medication. The National Institute
on Drug Abuse reported that prescription drug abuse by service members doubled
from 2002 to 2005 and almost tripled from 2005 to 2008.


Drug Take-Back Programs
Public Law 111-273, “The Secure and Responsible Drug Disposal Act of 2010,”
allows a patient to deliver controlled substances to a DEA-authorized entity for
disposal. Public Law 111-273 provides the legal authority for establishing take‑back
programs to dispose of prescription medication. The law states that take-back
programs must obtain permission from the DEA and they must arrange for a “full-time
law enforcement officer to receive the controlled substance.” Public Law 111-273
provides authority to the U.S. Attorney General to publish additional policy
authorizing patients to deliver medications to other appropriate entities
for disposal.

The DEA has conducted semi-annual Take-Back Days since October 5, 2010. The DoD
has encouraged all the Services to participate in these Take-Back Days at
military installations. For example, in 2012, 40 Air Force facilities participated in
DEA-sponsored National Drug Take-Back events and collected 4,330 pounds of
medication, an increase from 2011 when 31 Air Force facilities participated and
collected 2,500 pounds of medication. Although the TRICARE Management Activity
(TMA) has aggressively marketed the Take-Back Days, DoD IG’s Wounded Warrior
report for Camp Lejeune noted that the DEA Take-Back Day had low participation
rates for the Wounded Warrior population. Participation in semiannual Take-Back
Days has not fully addressed the needs of Wounded Warriors.


	17	
       Full title of the “Gold Book” is “Army 2020, Generating Health & Discipline in the Force Ahead of Strategic Reset,
       Report 2012.




                                                                                                                       Report No. DODIG-2014-040 │ 21
Observation 2



                  While these Take-Back Days are beneficial, limiting this activity to voluntary,
                  semi-annual, and anonymous events hinders DoD from collecting, documenting,
                  and disposing of medications that are no longer needed by Wounded Warriors.
                  As described earlier, Wounded Warriors have complex medical conditions that
                  may require frequent medication changes. Based on our assessments, Wounded
                  Warriors could have a significant accumulation of unneeded medication in the
                  6 months between DEA Take-Back Days.  A buildup of unneeded medications further
                  increases the risk for misuse of these medications. Drug take-back should be a routine
                  activity offered by the medical treatment facility pharmacy to mitigate this risk.


                  Discussion
                  In January 2011, the Vice Chief of Staff of the Army (VCSA) requested the DEA
                  authorize Army medical treatment facilities to conduct take-back programs in their
                  pharmacies. He expressed his assessment that current Federal regulations on the
                  disposal of controlled substances may have a “detrimental effect on the Army’s ability
                  to reduce unwanted controlled substances in the force … and limit the possibility
                  for accidental overdose and death related to unauthorized use of controlled
                  substances.” Subsequently, in April 2011, Army representatives met to discuss the
                  VCSA’s request with the DEA’s Office of Diversion Control. The DEA’s office indicated
                  that it was unprepared to act on the Army’s request at that time.

                  In June 2012, DoD officials interviewed for this report conveyed their commitment
                  to preventing prescription drug misuse, abuse, and accidental poisoning by
                  supporting the DEA Drug Take-Back Days. They notified beneficiaries and
                  medical treatment facilities when DEA Drug Take-Back Days were occurring
                  (i.e., semi-annually) and disseminated information on the TRICARE18 website, as
                  well as other means, about the importance of disposal of unneeded medications.

                  Additionally, in the summer of 2012, a DoD working group formed by ASD(HA)
                  began to explore the feasibility and options for a drug take-back program within the
                  DoD. This working group included representatives from the DoD Suicide
                  Prevention office, the Military Services, Patient Safety, Beneficiary Education and
                  Support, and the TMA’s Pharmaceutical Operations Directorate. This work is ongoing.




                  	18	
                         TRICARE is the healthcare program serving Uniformed service members, retirees, and their families worldwide.




22 │ Report No. DODIG-2014-040
                                                                                                                                Observation 2



In        October         2012,        TRICARE           Management              Activity-Pharmacy                Operations
Directorate awarded a contract for a technical study related to medication misuse
and suicidal behavior. In June 2013, TRICARE Management Activity received the
study titled, “Recommendations for the Department of Defense to Reduce
Pharmaceutical‑Related Suicide Behaviors in Members of the Armed Forces.”
This report concluded, “that reduced access (means restriction) to prescription
medications will reduce the incidence of accidental or intentional self-harm.”
The report also states, “we recommend a program to properly dispose of
prescription medications that have reached their expiration date or are no longer
needed for their intended purpose.” Finally, this report recommends, “TMA/ASD(HA)
should issue a DoD policy for an enterprise program that will ensure MTF
[military          treatment         facility]      pharmacies          provide        a     program         to     take-back
medications, including controlled substances, from beneficiaries.”

Although DoD has been taking internal action to help reduce the risk of prescription
drug abuse and diversion, they were still limited by the legal constraints of
Public Law 111-273.


Proposed Changes in DEA Regulations
In December 2012, the DEA published a notice in the Federal Register requesting
comments on proposed rulemaking addressing the secure disposal of controlled
substances. This proposed rule would implement Public Law 111-273 by
expanding options available to collect controlled substances from users for the
purpose of disposal to include: take-back events, mail-back programs, and collection
receptacles. Additionally, the proposed rule would allow retail pharmacies to
administer mail-back programs and maintain collection receptacles.

This proposed rule would increase the number of “authorized entities,” including
retail pharmacies, conducting take-back programs, but did not include DoD
pharmacies. The DoD does not have retail pharmacies—medical treatment facility
pharmacies are licensed as health system or hospital pharmacies. Therefore, the
proposed rule did not provide the authority the DoD has requested to conduct drug
take-back programs in its medical treatment facilities, which DoD stated is necessary
to “decrease misuse and abuse of these medications”19 by Wounded Warriors and
other DoD medical care beneficiaries.




	19	
       Assistant Secretary of Defense (Health Affairs) letter to the Drug Enforcement Administration dated February 19, 2013.




                                                                                                                    Report No. DODIG-2014-040 │ 23
Observation 2



                  DoD’s Response to the Proposed DEA Rule Change
                  In February 2013, the ASD(HA) submitted a response to the proposed DEA rule
                  change, explaining that the proposal would exclude DoD medical treatment facility
                  pharmacies from requesting collector status and “limit the DoD’s ability to accept
                  unused patient medications and reduce the potential effectiveness of efforts to
                  eliminate opportunities for medication misuse, abuse, and tragic adverse events.”
                  Consequently, DoD recommended a modification to the proposed Disposal of
                  Controlled Substances rule to allow medical treatment facility pharmacies registered
                  as hospitals/clinics to receive collector status.

                  ASD(HA) identified several key issues in their response:

                                 •	 1.4 million TRICARE beneficiaries use DoD’s medical treatment
                                     facility pharmacies to obtain their prescription medications. An additional
                                     600,000 beneficiaries utilize the TRICARE mail order program.

                                 •	 Since DoD does not classify its pharmacies as retail pharmacies but
                                     rather as hospital pharmacies, they would not be authorized to
                                     conduct medication take-back under the proposed DEA rule. This “will
                                     limit DoD’s ability to accept unused patient medications in a routine
                                     setting and reduce the potential effectiveness of efforts to eliminate
                                     opportunities for medication misuse, abuse, and tragic adverse events”20
                                     for 2 million TRICARE beneficiaries.

                                 •	 Each DoD medical treatment facility out-patient pharmacy has extensive
                                     security measures for theft and loss prevention, as well as a secure area
                                     to place collection receptacles.

                                 •	 There are 103 medical treatment facilities with 546 pharmacies
                                     throughout DoD. DEA’s pharmacy registration fee is $731 per pharmacy
                                     for 3 years. DoD would need to spend an additional $399,126 to
                                     re-register these out-patient pharmacies every 3 years.

                  Wounded Warriors obtain most of their medications from medical treatment
                  facility pharmacies. The DEA’s proposed rule would restrict these hospital-based
                  pharmacies from being authorized collectors of unwanted controlled substances.
                  Therefore, left unchanged, the proposed DEA policy will not allow for the routine
                  disposal of unused controlled substances by Wounded Warriors at DoD medical
                  treatment facility pharmacies.

                  	20	
                         Assistant Secretary of Defense (Health Affairs) letter to the Drug Enforcement Administration dated February 19, 2013.




24 │ Report No. DODIG-2014-040
                                                                                       Observation 2



Conclusion
Excess medication poses a risk to the health and well-being of Wounded Warriors
and their family members.  The availability of the FDA-approved methods to remove
expired or unneeded medications has not sufficiently reduced the adverse impact
on DoD personnel of medication misuse (see page 13 of this report “Impact of
Medication Misuse”). The DEA sponsored semiannual take-back days have not
eliminated the problem. Compliance with current DEA policy has hindered DoD
from establishing an internal, effective drug take-back program. It is important for
the military healthcare system to establish accountability and control with respect
to unused medications.       Wounded Warriors that are high-risk patients are often
prescribed medications that have increased potential for addiction, abuse, or
diversion and have no convenient method for returning unneeded and outdated
medications. Moreover, these medications can be diverted illegally to others.

Authorizing medical treatment facility pharmacies to become collectors would
allow DoD to conduct convenient take-back at the point of dispensing. This would
help remove unneeded medications from all at-risk TRICARE patients, especially
Wounded Warriors. For high-risk patients, the medical treatment facility pharmacy
could then document the medication returned in the military electronic health
record. This would help clinicians mitigate medication risks for Wounded Warriors
and other high-risk patients by identifying potential medication misuse before
adverse drug events occur.


Recommendations, Management Comments, and
Our Response

        Recommendation 2.a.
        Secretary of Defense request that the U.S. Attorney General expedite
        the Drug Enforcement Administration decision for issuance of
        authority for the Department of Defense to conduct routine take-back
        of unnecessary prescription medication in the military medical
        treatment   facility   pharmacies serving the    Wounded Warrior
        program population and other Department of Defense beneficiaries.




                                                                           Report No. DODIG-2014-040 │ 25
Observation 2



                  Secretary of Defense
                  The Office of the Secretary of Defense concurred with the recommendation and
                  tasked the Acting Under Secretary of Defense for Personnel and Readiness to send a
                  letter to the Attorney General.


                  Our Response
                  The letter from the Acting Under Secretary of Defense for Personnel and Readiness
                  is responsive and the actions meet the intent of the recommendation.


                             Recommendation 2.b.
                             Subsequently, and upon Department of Defense receipt of authority
                             from the Drug Enforcement Administration to conduct drug
                             take-back programs, Assistant Secretary of Defense for Health
                             Affairs establish Department of Defense policy and coordinate
                             the implementation of a related program across all Services for
                             conducting prescription medication take-back.



                  Assistant Secretary of Defense for Health Affairs
                  Assistant Secretary of Defense for Health Affairs concurred with comment to the
                  recommendation. The DoD and DEA are working to establish the authority necessary
                  to allow DoD to conduct drug take-back programs.


                  Our Response
                  Comments from the Assistant Secretary are responsive and the actions meet the intent
                  of the recommendation.


                             Recommendation 2.c.
                             Assistant Secretary of Defense for Health Affairs should consider
                             additional education and information initiatives to inform patients,
                             healthcare providers, and Wounded Warrior unit commanders on
                             the existing Food and Drug Administration and Drug Enforcement
                             Administration programs and procedures to remove expired or
                             unneeded medications.




26 │ Report No. DODIG-2014-040
                                                                                       Observation 2



Assistant Secretary of Defense for Health Affairs
ASD(HA) concurred with the recommendation. ASD(HA) intends to issue a
comprehensive policy for the adoption of optimal methods to reinforce ongoing
ASD(HA) activities in patient safety and suicide prevention.


Our Response
Comments from the Assistant Secretary are responsive and the actions meet the intent
of the recommendation.




                                                                           Report No. DODIG-2014-040 │ 27
                                                                                               Appendixes




Appendix A
Scope and Methodology
We conducted this assessment from May 2012 to February 2013 in accordance
with the Council of Inspectors General on Integrity and Efficiency, “Quality Standards
for Inspections and Evaluations,” January 2012. We planned and performed the
assessment to obtain sufficient and appropriate evidence to provide a reasonable
basis for our observations and conclusions, based on our assessment objectives.

The objective of the prior overarching “Assessment of DoD Wounded Warrior
Matters” (Project No. D2010-D00SP0-0209.000) was to assess the DoD programs
for the care, management, and transition of recovering service members wounded
during deployment in Operation Iraqi Freedom or Operation Enduring Freedom.
This   follow-on   assessment    specifically   addresses   the   theme   of   medication
management observed through previous work completed at the installation level,
and draws conclusions from observations made regarding policies and practices of
Department of Defense, ASD(HA) and the Services.

We stated in our April 16, 2010 project announcement memorandum, as well as
the design plan, that additional assessments on Wounded Warrior matters may
be conducted as pertinent issues are identified. Once the issue of medication
management was identified from multiple site visits and reports, we determined
that further description of the methodology outside of what was documented in the
original Wounded Warrior project design plan was required.

The objective of this follow-on assessment was to assess if the DoD had policies
and programs in place to manage the medication risks associated with Wounded
Warriors. Specifically, we addressed in detail issues concerning medication
management including medication reconciliation and disposal.

We reviewed documents such as Federal laws and regulations, the “National Defense
Authorization Act,” Chairman of the Joint Chiefs of Staff instructions, DoD directives
and instructions, and other relevant civilian and military scientific literature pertinent
to the topic of Wounded Warriors taking multiple medications.




                                                                                Report No. DODIG-2014-040 │ 29
Appendixes



                  Additionally, we reviewed observations from previous Wounded Warrior assessments
                  for information on medication reconciliation and proper disposal of medications.
                  This review included documentation of site visits, interviews, and briefings to establish
                  the subject matter of medication management in the Wounded Warrior population.

                  We also contacted organizations to obtain additional information through interviews
                  and requests for information about current DoD and Service-level medication
                  management practices in order to ensure that we had the most up-to-date
                  information available.

                  The Medication Management assessment report chronology was:

                  May-July 2012	           Research and fieldwork in CONUS

                  March-June 2013	         Analysis and report writing

                  November 2013	           Draft assessment report issued

                  December 2013	           Management comments received and evaluated

                  February 2014	           Report published


                  Use of Computer-Processed Data
                  We did not utilize any computer-processed data in this assessment.




30 │ Report No. DODIG-2014-040
                                                                                         Appendixes




Appendix B
Summary of Prior Coverage
Several reports were issued during the past 5 years about Department of Defense
and Department of Veterans Affairs healthcare services and management, disability
programs, and benefits.      The Government Accountability Office, Department of
Defense, Department of Defense Inspector General, and Army Audit Agency have
issued 16 reports relevant to DoD Medication Management issues.

Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov.

Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/PUBS/index.html.

DoD Recovering Warrior Task Force reports can be accessed at
http://dtf.defense.gov/rwtf/.

Army Audit Agency reports are not available over the Internet.


GAO
GAO Report No. GAO-13-5, “Recovering Service Members and Veterans, Sustained
Leadership Attention and Systematic Oversight Needed to Resolve Persistent Problems
Affecting Care and Benefits,” November 2012

GAO Report No. GAO-12-676, “Military Disability System: Improved Monitoring Needed
to Better Track and Manage Performance,” August 28, 2012

GAO Report No. GAO-12-129T, “DoD and VA Health Care: Action Needed to
Strengthen Integration across Care Coordination and Case Management Programs,”
October 6, 2011

GAO Report No. GAO-11-32, “VA Health Care: VA Spends Millions on Post-Traumatic
Stress Disorder Research and Incorporates Research Outcomes into Guidelines and
Policy for Post-Traumatic Stress Disorder Services,” January 24, 2011




                                                                          Report No. DODIG-2014-040 │ 31
Appendixes



                  GAO Report No. GAO-09-357, “Army Health Care: Progress Made in Staffing and
                  Monitoring Units that Provide Outpatient Case Management, but Additional Steps
                  Needed,” April 20, 2009

                  GAO Report No. GAO-09-31, “Defense Health Care: Additional Efforts Needed to Ensure
                  Compliance with Personality Disorder Separation Requirements,” October 31, 2008

                  GAO Report No. GAO-08-615, “DoD Health Care: Mental Health and Traumatic Brain
                  Injury Screening Efforts Implemented, but Consistent Pre-Deployment Medical Record
                  Review Policies Needed,” May 30, 2008.DoD IG


                  DoD
                  Department of Defense Recovery Warrior Task Force, 2011-2012 Annual Report,
                  August 31, 2012

                  Department of Defense Recovering Warrior Task Force, 2010-2011 Annual Report,
                  September 2, 2011


                  DoD IG
                  DoD IG Report No. DODIG-2013-113, “Assessment of DoD Wounded Warrior Matters–
                  Fort Riley,” August 6, 2013

                  DoD IG Report No. DODIG-2013-087, “Assessment of DoD Wounded Warrior Matters–
                  Joint Base Lewis-McCord,” May 31, 2013

                  DoD IG Report No. DODIG-2012-120, “Assessment of DoD Wounded Warrior Matters–
                  Wounded Warrior Battalion–West Headquarters and Southern California Units,”
                  August 22, 2012

                  DoD IG Report No. DODIG-2012-067, “Assessment of DoD Wounded Warrior Matters–
                  Camp Lejeune,” March 30, 2012

                  DoD IG Report No. SPO-2011-010, “Assessment of DoD Wounded Warrior Matters–
                  Fort Drum” September 30, 2011

                  DoD IG Report No. SPO-2011-004, “Assessment of DoD Wounded Warrior Matters–
                  Fort Sam Houston,” March 17, 2011




32 │ Report No. DODIG-2014-040
                                                                                        Appendixes



DoD IG Report No. IE-2008-005, “DoD/VA Care Transition Process for Service Members
Injured in Operation Iraqi Freedom/Operation Enduring Freedom,” June 12, 2008

DoD IG Report No. IE-2008-003, “Observations and Critique of the DoD Task Force
on Mental Health,” April 15, 2008


Army
Army Audit Report No. A-2011-0008-IEM, “Army Warrior Care and Transition Program,”
October 21, 2010




                                                                         Report No. DODIG-2014-040 │ 33
Appendixes




                  Appendix C
                  Legislative History and Related Activity
                  The legislative history, congressional initiatives, and DoD actions related to the
                  prescription medication take-back program and DoD include:

                          1.	    October 12, 2010:      Public Law 111-273, “The Secure and Responsible
                                 Drug Disposal Act, 2010” is enacted. This law provides authority to the
                                 Attorney General to publish rules for implementation.

                          2.	    January 2011: The VCSA requested the DEA authorize Army treatment
                                 facilities to conduct take-back programs in their pharmacies.

                          3.	    April 2011:    Army representatives met with DEA’s Office of Diversion
                                 Control to discuss the VCSA’s request. The DEA indicated they were
                                 unprepared to act on the Army’s request at that time.

                          4.	    December 4, 2012:       Senate passes Sen. 3254, 112th Cong., 2d sess.,
                                 the proposed “National Defense Authorization Act for FY 2013.”
                                 It contained a provision (section 736) entitled the “Prescription Drug
                                 Take-Back Program for Members of the Armed Forces and Their
                                 Dependents.” This provision was the result of an amendment offered
                                 by Senators Collins, Lieberman and Blumenthal and accepted during
                                 Senate consideration and passage of S. 3254.

                          5.	    December 18, 2012:  The resulting conference report (Conference
                                 Report No. 112-705) to accompany Public Law 112-239, National
                                 Defense Authorization Act for FY 2013 did not contain section 736.
                                 In not adopting the legislative provision, conferees stated, “The conferees
                                 have been informed that the Drug Enforcement Administration has
                                 drafted a comprehensive Notice of Proposed Rulemaking to implement
                                 Public Law 111-273. The conferees urge the DEA to ensure the
                                 Department of Defense is provided the opportunity to review and provide
                                 comment on the rule, and expect that the Department of Justice will
                                 keep Congress informed of these efforts.”




34 │ Report No. DODIG-2014-040
                                                                                    Appendixes



6.	   December 21, 2012: To implement Public Law 111-273 (see above),
      the DEA requested comment and published a notice of proposed
      rulemaking (Vol. 77 Federal Register No. 246, 21 December 2012,
      pp. 75784-757817) outlining “requirements to govern the secure disposal
      of controlled substances by both DEA registrants and ultimate users.”
      As a new regulation, the DEA proposed to allow retail pharmacies to
      administer take-back programs and maintain collection receptacles.

7.	   February 2013: The ASD(HA) submitted a response to the proposed DEA
      rule change. The ASD(HA) recommended a modification to the DEA’s
      proposed Disposal of Controlled Substances rule to allow MTF pharmacies,
      registered as hospitals/clinics pharmacies to receive collector status.
      MTF pharmacies are registered as hospital/clinic pharmacies and not as
      retail pharmacies.

8.	   June 4, 2013: Senator Susan Collins introduced Sen. 1089, 113th Cong.,
      1st sess., “Service Members and Veterans Prescription Drug Safety Act
      of 2013.” The legislation is co-sponsored by Senators Blumenthal,
      Boxer, Manchin, Murkowski, and Boozman.




                                                                     Report No. DODIG-2014-040 │ 35
                       Management Comments




Management Comments
Secretary of Defense




                       Report No. DODIG-2014-040 │ 37
Management Comments



                  Secretary of Defense (cont’d)




38 │ Report No. DODIG-2014-040
                                                    Management Comments



Assistant Secretary of Defense for Health Affairs




                                                    Report No. DODIG-2014-040 │ 39
Management Comments



                  Assistant Secretary of Defense for Health Affairs (cont’d)




40 │ Report No. DODIG-2014-040
                                                   Management Comments



Assistant Secretary of Defense for Health Affairs (cont’d)




                                                   Report No. DODIG-2014-040 │ 41
Management Comments



                  Assistant Secretary of Defense for Health Affairs (cont’d)




42 │ Report No. DODIG-2014-040
                                                   Management Comments



Assistant Secretary of Defense for Health Affairs (cont’d)




                                                   Report No. DODIG-2014-040 │ 43
Management Comments



                  Assistant Secretary of Defense for Health Affairs (cont’d)




44 │ Report No. DODIG-2014-040
                                              Management Comments



Army Surgeon General, Army Military Command




                                              Report No. DODIG-2014-040 │ 45
Management Comments



                  Navy Surgeon General and Navy Bureau of Medicine
                  and Surgery




46 │ Report No. DODIG-2014-040
                                                                                                                     Management Comments



Navy Surgeon General and Navy Bureau of Medicine
and Surgery (cont’d)


     Recommendation A.2. - "Military Services' Surgeons General review and update policies and procedures
     for medication reconciliation to ensure that they are appropriate to address the unique needs of the
     Wounded Warrior population."

     BUMED concurs with the importance of medication reconciliation, particularly for Wounded Warriors,
     who are more likely to be prescribed a variety of medications for various conditions. We concur that
     policies regarding medication reconciliation should be reviewed to ensure that they address the unique
     needs of Wounded Warriors.

     As stated in the report, there is no overarching BUMED policy governing medication reconciliation. In
     the past, Navy Medicine has refrained from mandating specific medication reconciliation processes
     given important differences that exist at the local level, including unique patient populations at our
     various MTFs, differences in facility capabilities, staffing variations, and other characteristics. Navy
     Medicine has also historically placed a great deal of importance on individual provider autonomy and
     the professional judgment of prescribers when interacting with individual patients, which could be
     impacted by the imposition of enterprise-wide standards.

     However, medication reconciliation is emphasized at every Navy MTF, in accordance with The Joint
     Commission (TJC) National Patient Safety Goals. All of our prescribing providers are required to review
     and confirm with patients the list of medications a patient is taking, and to take this into account in their
     prescription practices and clinical decision-making. All of our MTFs are encouraged to use the SF-508
     form to perform medication reconciliation during each clinic visit. Many of our sites use an electronic
     version of the SF-508 that is populated with a list of active medications from CHCS. Again though, the
     specific policies for conducting medication reconciliation are specified in local command instructions.

     This recommendation seems to endorse a more centralized medication management policy for
     Wounded Warrior patients, similar to the development of a Clinical Practice Guideline. BUMED does not
     object to this, but we believe that any centralized policy should be sufficiently flexible to account for
     variations in practice that are necessary given differences in the circumstances at each local site. BUMED
     concurs with the concept of standardization and is very active in this regard with many initiatives
     currently ongoing to decrease variation across Navy Medicine. These standardization efforts are
     inclusive of Wounded Warrior patients but also extend to the beneficiary population at large. We also
     recognize the risks of polypharmacy, particularly with regard to controlled substances, and to that end
     have implemented the DoD/VA approved CPG on Chronic Opioid Therapy. We believe this will address
     many of the concerns raised in the report and benefit not only our Wounded Warriors, but all of our
     patients.




                                                                                                                     Report No. DODIG-2014-040 │ 47
                                                                  Acronyms and Abbreviations




Acronyms and Abbreviations
    ADE Adverse Drug Events
  AHLTA Armed Forces Health Longitudinal Technology Application
ASD (HA) Assistant Secretary of Defense for Health Affairs
 CBWTU Community-Based Warrior Transition Unit
     CDC Centers for Disease Control and Prevention
   DCoE Defense Centers of Excellence
     DEA Drug Enforcement Administration
    DRP Drug Related Problems
MEDCOM Medical Command
    MHS Military Health System
   NPSG National Patient Safety Goals
 ONDCP National Office of Drug Control Policy
   OTSG Office of the Surgeon General
    PDTS Pharmacy Data Transaction Service
     PEC Pharmacoeconomic Center
      PH Psychological Health
 P-MART Prescription Medication Analysis and Reporting Tool
     TBI Traumatic Brain Injury
    TMA TRICARE Management Activity
   USMC United States Marine Corps
   VCSA Vice Chief of Staff of the Army
   WCTP Warrior Comprehensive Transition Program
    WTU Warrior Transition Unit




                                                                     Report No. DODIG-2014-040 │ 49
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                           1.800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
